           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of KPMG’s                  Date:    September 22, 2005
           Notice of Finding and Recommendation,
           “Financial Reporting Process—ESC Reporting
           Structure”
           QC-2005-076

  From:                                                           Reply to
           Theodore Alves                                         Attn. of:   JA-20
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    The Secretary

           This management letter addresses findings related to the operations of the
           Enterprise Service Center (ESC). ESC is a Federal Aviation Administration
           (FAA) organization that is located at the Mike Monroney Aeronautical Center in
           Oklahoma City, Oklahoma. It operates and maintains the Department’s financial
           management system, called Delphi, and provides accounting services to all the
           Department’s Operating Administrations. Because ESC has also been designated
           a “Center of Excellence” by the Office of Management and Budget, it is
           authorized to provide accounting services to other Federal agencies and currently
           provides services to one other Federal agency. ESC plays a key role in the
           Department, so ESC’s organizational structure, reporting relationships, and
           operational effectiveness are important to the Department’s overall efforts to
           improve financial management effectiveness.

           We hired the auditing firm KPMG LLP to audit FAA’s fiscal year 2005 financial
           statements. When KPMG reviewed FAA’s Accounting Operations Consolidation
           Plan during the planning phase of the audit, it identified concerns regarding ESC’s
           reporting relationships and organizational structure. After completing a limited
           review and discussing the issues with responsible officials from FAA and the
           Office of the Secretary, KPMG documented its concerns and recommendations in
           a Notice of Finding and Recommendations (see Attachment 1). Although KPMG
           concluded that these issues have not resulted in control deficiencies that would
           adversely affect the current financial audit, it believes the issues have the potential
           to result in a reportable condition in the future unless they are promptly addressed.
                                                                                 2



In summary, KPMG identified eight findings:

• ESC does not have a direct reporting relationship to the Office of the Secretary
  of Transportation (OST). As a result, the OST Chief Financial Officer’s (CFO)
  ability to establish policies, procedures, and controls at ESC could be impaired.

• The FAA’s CFO does not have full control of the portion of FAA’s financial
  accounting operations budget that goes to ESC. As a result, unlike other
  Operating Administration CFOs, the FAA CFO does not have budgetary
  control over the services provided by ESC. The budget to support FAA
  accounting activities is provided to ESC by the Regional and Center
  Operations organization, rather than the FAA CFO.

• Operating Administration CFOs may lack clear authority to ensure that
  operating and programmatic units institute adequate internal controls to
  prevent submission of erroneous data to ESC. As a result, ESC may receive
  erroneous data from the Operating Administrations, which could affect the
  reliability of the DOT financial statements.

• It is unclear what authority the CFOs for the Operating Administrations and
  OST have to determine the types of transactions ESC will process. As a result,
  individual CFOs may not be in a position to make the most cost-effective
  decision about the services to outsource to ESC.

• The proposed job description of the ESC Chief Executive appears to be too
  broad and lacks requirements for technical and financial systems experience.

• ESC lacks an effective cost accounting system. As a result, ESC has difficulty
  establishing unit prices for its services.

• The Service Level Agreement between ESC and the Operating Administrations
  is not standardized. This means that transaction processing activities could be
  extensively customized, thus increasing the risk of errors.

• The draft ESC performance agreement lacks metrics to measure key
  performance elements. Because the existing metrics focus heavily on
  timeliness, other important performance measures, such as accuracy and
  completeness, are not being tracked. As a result, ESC management, OST, and
  the Operating Administrations may not have the information they need to
  ensure that accounting operations are being conducted in the most cost-
  effective manner.
                                                                                    3



KPMG made a total of eight recommendations to address its findings. The FAA
CFO agreed with the KPMG findings and recommendations. We also agreed with
the KPMG findings and recommendations and transmitted the Notice of Findings
and Recommendations to the Assistant Secretary for Budget and Programs / CFO
on August 11, 2005. In her August 31, 2005 response (see Attachment 2), the
CFO concurred with the findings, agreed with the recommendations, and
committed to implementing corrective actions during fiscal year 2006.

This management letter communicates deficiencies in internal controls that at this
time do not rise to the level of a reportable condition (in accordance with section
5.16 of the Government Accountability Office’s statement of Generally Accepted
Government Auditing Standards). However, continued attention to the proposed
corrective actions is needed to ensure these internal control deficiencies do not rise
to the level of a reportable condition in the future. In accordance with DOT Order
8000.1C, the corrective actions taken in response to the recommendations are
subject to follow up.

This work was completed as part of our financial statement audit, which is being
done in accordance with Generally Accepted Government Auditing Standards. In
our opinion, the audit work performed by KPMG complied with applicable
standards.

We appreciate the cooperation and assistance of the CFO, FAA, and KPMG LLP
representatives. If you have any questions or if I can be of further assistance,
please call me at (202) 366-1992.

Attachments (2)

                                          #
                                                                         Atta ch me nt 1 , Pag e 1 of 8
                              F ed e ra l Av iat ion Ad m in ist rat ion
                             FY 2005 Fina ncia l Stat ement Audit
            Not if icat ion of Finding s and R ecommendat ions (N FR) 05-J-01

               Financial Reporting Process – ESC Reporting Structure

Background:

The Department of Transportation (DOT) created the Enterprise Service Center (ESC) to
serve as a centralized systems and accounting operation for the DOT and each of its
Operating Administrations (OA). The ESC accounting operation is located in the Office of
Financial Operations (Finance Center), located at the Mike Monroney Aeronautical Center
in Oklahoma City, Oklahoma. The ESC will be the primary accounting services provider
for all OA’s and the Department of Transportation, and will eventually become one of the
few “Centers of Excellence” designated by the OMB to provide outsourced / centralized
accounting services to other Federal agencies.

The ESC currently provides accounting services for all DOT OAs including a portion of
the FAA. In August 2004, the FAA adopted an Accounting Operations Consolidation Plan
(Consolidation Plan) that outlines a strategy to consolidate accounting operations activities
from nine FAA regional accounting offices into the ESC. The consolidation plan was
adopted by the FAA to (1) realize cost savings across accounting operations, (2) achieve
standardized accounting practices, and (3) improve financial information and accounting
services. Additionally, by achieving these goals for the FAA and the DOT, the ESC will be
well-positioned to provide accounting services to other Federal agencies. The
consolidation is a two-year process beginning in FY 2005 and scheduled to be completed in
FY 2006.

Functionally, the FAA Consolidation Plan will move routine processes from eight regions
to the ESC in Oklahoma City. The processes being moved from the regions to the ESC
are:

   •   Commercial payments
   •   Travel
   •   Grants
   •   Accounts receivable
   •   Property accounting
   •   Reimbursables
   •   General Accounting
   •   Reports analysis / Reporting (for select smaller OA’s)
   •   Other administrative
                                                                         Atta ch me nt 1 , Pag e 2 of 8
                              F ed e ra l Av iat ion Ad m in ist rat ion
                             FY 2005 Fina ncia l Stat ement Audit
            Not if icat ion of Finding s and R ecommendat ions (N FR) 05-J-01

               Financial Reporting Process – ESC Reporting Structure

Most of these processes are characterized by routine / like-kind / highly automated transactions
that are well suited for centralization and standard processes, procedures and controls (both
system and manual). Conceptually, the ESC would provide greater accounting support, e.g.,
prepare OA financial statements to the smaller OA’s, e.g., preparing financial statements and less
to large OA’s, e.g., FAA would prepare its own financial statements. Functions related to policy,
financial performance and certain unique functions will remain the responsibility of the FAA
CFO, as defined in the Consolidation Plan (page 10).

The organizational structure after the move has remained essentially the same as it was
before the reorganization. Personnel performing the centralized processes at the ESC will
continue to report to the Region and Center Operations (ARC) management. ARC
leadership reports directly to the FAA Administrator. Some effort has been made to clarify
the role of the FAA CFO, e.g., authority and responsibility for the successful completion of
accounting functions within these processes, however responsibility remains vaguely
defined. Currently the FAA CFO authority over accounting operations is defined as
“dotted line”. The FAA CFO also reports to the Administrator of the FAA.

Results of Review – Observations and Recommendations:
On June 7th representatives from the DOT OIG – Ted Alves and George Banks, together
with the audit engagement partner for the FAA financial statement audit, Scot Janssen –
received a tour of the ESC and interviewed several key management personnel to perform
tests of design related to the FAA audit financial reporting process. The review was
focused on the current and planned organizational structure of ESC, the effects on entity
and process level internal controls related to the financial reporting process, and how the
structure will affect DOT OA CFOs ability to fulfill their responsibilities for financial
reporting. The matters identified below are not likely to have a significant impact on the
financial reporting at the FAA in fiscal year 2005. However, they may develop into, or
contribute to, internal control weaknesses in future years if not addressed. To facilitate
management’s review, recommendations are provided immediately below each comment.
Our observations and recommendations are based solely on limited review and discussions
with key management personnel, and may have been modified, possibly significantly, had
we performed additional procedures.
                                                                         Atta ch me nt 1 , Pag e 3 of 8
                              F ed e ra l Av iat ion Ad m in ist rat ion
                             FY 2005 Fina ncia l Stat ement Audit
            Not if icat ion of Finding s and R ecommendat ions (N FR) 05-J-01

              Financial Reporting Process – ESC Reporting Structure

1 ESC does not have a direct reporting relationship to the Office of Secretary of
   Transportation (OST) CFO. The ESC was created by the DOT to provide accounting
   services to all DOT OAs and eventually to other Federal agency customers. However,
   there is no clear reporting relationship between ESC management and the OST CFO – a
   significant deficiency in the reporting hierarchy of the ESC. Organizationally, the ESC is a
   component operation of the FAA. ESC leadership and its financial managers report
   directly to the FAA Assistant Administrator for Region and Center Operations with a
   “dotted line” reporting relationship to the FAA CFO. The Consolidation Plan states that
   the FAA CFO (not OST CFO) has responsibility for FAA financial “policy”. This situation
   could impair the OST CFO’s ability to establish policies, procedures, processes and
   controls at the ESC, that reasonably assure the reliability of the DOT OA and the DOT
   consolidated financial statements and internal controls. As a practical matter the OST
   CFO has had influence over ESC operations to date, but this is not supported by a formal
   organizational structure, and is subject to change with personnel movements. Also a
   Steering Committee has been formed by the DOT, however to-date most of the
   Committee’s focus has been on IT / Delphi system implementation and general controls,
   not the ESC accounting operations.
   Recommendation: We recommend that the DOT formalize the reporting hierarchy of
   the ESC to create a direct reporting relationship with the OST CFO.                       We also
   recommend that the role of the Steering Committee be expanded to include all
   operations of the ESC and in particular the accounting service functions.

2 The FAA CFO does not have full control of the FAA financial accounting operations budget
   provided to ESC. Currently there is an inconsistency in how financial operating budgets are
   allocated and administered within the DOT. Certain OA CFOs (other than FAA) are allocated
   annual funds for financial accounting operations. Those OA CFOs are able to enter into an
   arms-length business agreement with the ESC, by negotiating the price for ESC services and
   making periodic payments for services received. If an OA is unsatisfied with ESC services,
   they are able to temporarily withhold payment until the matter is resolved through appropriate
   leadership channels. This creates an arms-length transaction with the ESC and provides the
   customer with some leverage over the business relationship. However, the majority of the
   FAA’s funds allocated for financial accounting operations reside in ARC, placing the FAA
                                                                         Atta ch me nt 1 , Pag e 4 of 8
                              F ed e ra l Av iat ion Ad m in ist rat ion
                             FY 2005 Fina ncia l Stat ement Audit
            Not if icat ion of Finding s and R ecommendat ions (N FR) 05-J-01

              Financial Reporting Process – ESC Reporting Structure

   CFO at a significant and unreasonable business disadvantage, and hinders his/her ability to
   effectively fulfill the responsibilities of a CFO. Each CFO should be provided with the
   authority and discretion to use allocated financial accounting funds in a manner determined by
   them (within the parameters established by the OST CFO and OA leadership). The CFO’s
   control and expenditure of discretionary accounting funds is a fundamental and essential tool
   used routinely by a CFO to invest in, and maintain, good financial management practices
   which the CFO is uniquely qualified to do. If left unresolved, this situation could easily
   marginalize the effectiveness of the FAA CFO and interfere with his/her ability to certify the
   completeness and accuracy of financial statements and the Performance and Accountability
   Report, as required by Federal regulations. In addition, it would impact the FAA CFO’s
   ability to make an assertion on the effectiveness of internal controls in compliance with the
   new OMB Circular A-123, certify the accuracy of the annual FMFIA statement, and agree to
   provisions of the annual independent auditors’ representation letter.

   Recommendation: We recommend that the FAA CFO be allocated appropriate and
   sufficient funding annually to support the financial accounting operations of the FAA,
   similar to the distribution of accounting operation budgets to other DOT OAs. Each
   CFO should be able to use their allocated funding to best fulfill the financial
   management obligations of the OA, including negotiating and purchasing services from
   the ESC, within the guidelines established by the OST CFO. As a component of a
   larger organization, each DOT OA CFO would coordinate their respective budgets with
   the OST CFO and OA leadership. All FAA funds allocated for financial accounting
   operations that are presently in ARC (and a portion in the Air Traffic Organization for
   the Technical Center) should be allocated to the FAA CFO. The FAA CFO would then
   have discretion to use financial accounting funds to fulfill the responsibilities of the
   CFO, with appropriate oversight and approval of the OST CFO.
3 OA CFO’s lack clear authority over operating and programmatic units internal
   controls. As a consequence, the ESC may receive and process erroneous data submitted
   by the operating and programmatic units of the DOT – which could result in unreliable
   financial reports and time-consuming efforts to correct the problem. The ESC must
   rely on the quality of input data submitted by DOT OAs, to ensure accurate and
   complete transactional processing. The ESC cannot reasonably, and cost effectively,
                                                                          Atta ch me nt 1 , Pag e 5 of 8
                               F ed e ra l Av iat ion Ad m in ist rat ion
                              FY 2005 Fina ncia l Stat ement Audit
             Not if icat ion of Finding s and R ecommendat ions (N FR) 05-J-01

                  Financial Reporting Process – ESC Reporting Structure

   prevent the submission and processing of erroneous data. This situation requires each
   OA to establish extensive back-end detective controls and commit excessive resources
   to perform reconciliations to pinpoint the source of error, correct and re-process the
   transaction from the beginning.       In addition, the correction of these issues, including
   the strengthening of internal controls, is complicated by a lack of clear authority of the
   OA CFO over accounting activities performed by the program personnel. Currently,
   many accounting related functions are performed by personnel who do not report to the
   OA CFO. Similar to the observation described in No. 1 above, a lack of direct
   reporting hierarchy of accounting personnel within OA program units could impair the
   OA CFO’s ability to fulfill his/her responsibility to institute sound accounting processes
   and controls.
   Recommendation: We recommend that the DOT OST CFO and all OA CFO’s review
   operating and programmatic financial processes that serve as inputs to ESC, and be
   given the authority to correct deficiencies and establish reliable front-end accounting
   processes and procedures. Appropriate management and system controls should be
   implemented that reasonably ensure the quality of data submitted to the ESC. This
   program could be started by early implementation of the new OMB Circular A-123
   requirements. We encourage management to implement preventative controls on the
   front-end of the processes as they are reviewed and redesigned, if necessary. To
   improve the control environment, the OA CFO should have authority to establish
   policies and procedures performed by all personnel performing accounting functions
   and, in some cases, have a direct reporting relationship with the CFO’s office. Also
   OST must ensure that Delphi general controls are effective and produce a clean SAS 70
   report, with no material weaknesses. The owners of the various feeder systems to
   Delphi must likewise ensure the reliability of automated data feeds and interfaces. This
   can be achieved by enhanced system edit checks to monitor and report transaction
   reliability.
4 The risk of error increases proportionally with the non-routine functions performed by
   the ESC. The DOT has appropriately mandated the use of the ESC to process certain
   routine financial transactions. It is possible to have an effective outsourcing
   arrangement for certain types of transactions in well managed circumstances. For
   example, routine / highly automated processes that involve large numbers of identical
                                                                         Atta ch me nt 1 , Pag e 6 of 8
                              F ed e ra l Av iat ion Ad m in ist rat ion
                             FY 2005 Fina ncia l Stat ement Audit
            Not if icat ion of Finding s and R ecommendat ions (N FR) 05-J-01

                Financial Reporting Process – ESC Reporting Structure

   transactions are ideally suited for outsourcing to a service provider. Conversely, non-
   routine transactions, that have varied input and require financial expertise and judgment
   to correctly process the transaction are more susceptible to error and increase risk to the
   financial reporting process and consequently are less suited for outsourcing without
   more robust and costly input / output controls over the data. Each OA CFO should be
   expected to determine which financial transactions are considered routine and be able
   to, in consultation with the DOT CFO, limit the transactions or processes outsourced to
   the ESC to only routine functions. Currently, OA CFO authority to choose the
   processes to outsource to ESC, is not explicitly clear in any documents we reviewed or
   by management comments provided to us.

   Recommendation: We recommend that the DOT OST and OA CFOs have explicit
   authority to select the process and/or transaction types that are appropriate for
   outsourcing to ESC. This may include whole processes or select transactions within a
   process. Instances my also arise when the OST or OA CFO will need to temporarily
   perform the processing of certain transactions to diagnose issues and establish proper
   controls. However, each CFO should be expected to operate within the systems design
   established by the DOT OST CFO, and accordingly decisions that may be inconsistent
   with established ESC outsourcing mandates should require appropriate leadership
   approvals.

5 The job description of the proposed ESC Chief Executive appears to be overly broad,
   and lacks technical and financial systems experience. As advertised the ESC Chief
   Executive will function as corporate CEO and have a significant role in marketing the
   operation to potential customers. Financial and technical systems expertise, unique to
   outsourcing and accounting service businesses, is not explicitly detailed in the Chief
   Executive position description. The accounting services industry is a highly
   specialized business that requires a Chief Executive with an appropriate balance of
   functional and technical expertise to serve as an effective leader of the operation.

   Recommendation: We recommend that the job description of the proposed Chief
   Executive be broadened to include a balance of functional and technical systems
   expertise together with proven leadership and marketing experience.
                                                                          Atta ch me nt 1 , Pag e 7 of 8
                               F ed e ra l Av iat ion Ad m in ist rat ion
                              FY 2005 Fina ncia l Stat ement Audit
             Not if icat ion of Finding s and R ecommendat ions (N FR) 05-J-01

                Financial Reporting Process – ESC Reporting Structure

6 ESC lacks an effective cost accounting system to accumulate costs-of-service on a unit
    basis. The ESC will need an effective cost accounting system to accumulate its direct
    and indirect costs (including allocated overhead) by product or service unit. Until then,
    the ESC will have difficulty establishing unit prices (or charge-backs within DOT) for
    its services, ensuring full recovery of costs, periodically benchmarking its processes
    against best-practices, and resolving the cost of disputed services. The ESC will also
    have difficulty supporting its annual budget requests to ensure appropriate funding for
    needed investments and on-going operations.
    Recommendation: We recommend that the ESC develop a cost accounting system to
    accumulate direct and indirect costs on a unit basis, to support the operating budget, and
    product and service fee structure of the ESC.
7 The Service Level Agreement (SLA) between the ESC and the DOT OA’s is not
    standardized, and the ESC may be enticed to customize processes in the interest of
    customer service. There is an unusual emphasis being placed on the design and content
    of the SLA to respond to unique customer requirements. Customization will create
    variants of the process – each requiring incremental knowledge, training, and
    experience to ensure accuracy in processing and output. Process variants also increase
    the administration and cost of service affecting unit prices, performance metrics, and
    cost of services. More importantly, the risk of process errors and financial statement
    misstatements will increase with process customization made by ESC.

    Recommendation:        We recommend that the Service Level Agreement (SLA) be
    standardized, and the ESC should limit the extent of customization of processes.
    Generally, the ESC should offer processing services only for routine, standardized
    accounting functions that safely fit within the parameters of the ESC process and IT
    system. The ESC should establish the SLA with strict and easy to monitor performance
    standards (see No. 8 below).

8   The draft ESC performance agreement lacks metrics that measure critical management
    assertions – accuracy and completeness – addressing the quality of work performed the ESC.
    The current performance agreement focuses almost exclusively on “timeliness” of service, and
    is not designed to measure and report on all transactions processed. For example, one
    performance standard states that “95% of transactions will be processed in 3 days”, without
                                                                         Atta ch me nt 1 , Pag e 8 of 8
                              F ed e ra l Av iat ion Ad m in ist rat ion
                             FY 2005 Fina ncia l Stat ement Audit
            Not if icat ion of Finding s and R ecommendat ions (N FR) 05-J-01

               Financial Reporting Process – ESC Reporting Structure

   mention of the remaining 5%, or the quality of the processing for all transactions. As captive
   customers, the DOT and its OAs should be able to rely on established standards of performance
   that provide management with confidence that all (or a very high percentage – e.g., 99.99%)
   transactions are processed accurately and completely, resulting in materially correct account
   balances. Without this confidence the CFO may be unable to assert to the reliability of the
   DOT or OA financial statements, without extensive and costly “internal audit” functions or
   output controls performed over critical process level assertions – accuracy, completeness,
   existence, ownership, and presentation. Further, performance measures are necessary to
   measure cost effectiveness, and benchmark the competitive position of ESC compared with
   other service providers.
   Recommendation: We recommend that ESC develop a performance agreement that includes
   metrics to measure essential management assertions – accuracy and completeness – and that
   addresses the quality of work performed by the ESC. The ESC should create performance
   metrics, together with a timely, e.g., weekly or daily, executive dash board that provides critical
   information on transaction flow, error rates, and other efficiency and quality standards.
                                             *****
Agency Response:
       _____X___ Management concurs with this finding.
       __________ Management does not concur with the finding.
Your written response will be considered when preparing the draft audit report. Please
provide specific actions planned or taken to address the condition along with specific
target dates.




______________________________                   ______________________________
Scot Janssen                                     Remesh Punwani
Partner, KPMG LLP                                FAA – Chief Financial Officer
                                                             Atta ch me nt 2 , Pag e 1 of 6




MEMORANDUM TO: Theodore Alves
             Principal Assistant Inspector General
                for Auditing and Evaluation

FROM:                Phyllis F. Scheinberg

SUBJECT:             KPMG’s Notice of Finding and Recommendation on
                     “Financial Reporting Process – ESC Reporting Structure”



Thank you for your memorandum (copy attached) that summarized and forwarded the
KPMG Notice of Finding and Recommendation (NFR) on the organizational reporting
structure of the Enterprise Services Center (ESC), located at the Federal Aviation
Administration (FAA) Mike Monroney Aeronautical Center (MMAC) in Oklahoma
City. We concur with the findings and recommendations provided by KPMG, which were
previously concurred in by FAA Chief Financial Officer (CFO) Ramesh Punwani. We
have already taken action on several of the recommendations and will ensure that
the remaining actions are taken as follows:

1. Recommendation: DOT formalize the reporting hierarchy of the ESC and expand the
   ESC Steering Committee to include all ESC functions.

   Response: Concur – On July 18, 2005, I issued a policy (copy attached), effective
   October 1, 2005, that requires the MMAC to staff and operate on a reimbursable basis
   the ESC, which will provide accounting operations and financial systems services to
   DOT Operating Administrations (OAs) and to agencies outside DOT under the Office
   of Management and Budget (OMB) Center of Excellence program.

   An SES level position (Director of ESC) has been established and advertised to provide
   leadership for the ESC. In accordance with the July 18, 2005 policy, the Director of
   ESC will report for administrative purposes to the MMAC Director; however,
   programmatic direction and guidance will be provided by my Office, and the annual
   performance plan and the annual performance rating, bonuses, and awards for the ESC
   Director, the ESC Director of Financial Operations, and the ESC Director of Financial
   Systems (Delphi) will be submitted to the DOT CFO for advance concurrence.
                                                             Atta ch me nt 2 , Pag e 2 of 6



   In addition, by October 1, 2005, the Delphi Executive Steering Committee charter will
   be expanded by to include all operations of the ESC, including accounting services.

2. Recommendation: The FAA CFO be allocated appropriate funding to support
   accounting operations similar to other OAs.

   Response: Concur – We are working with FAA to modify their internal budget
   process to re-direct funding provided to ARC and the Lines of Business to the FAA
   CFO for the purpose of procuring financial services from the ESC. Additionally, the
   DOT CFO will be responsible for the final review and approval of ESC charges and
   a signatory to the annual interagency agreement between the OAs and the ESC. The
   review of the overall ESC budget, including both accounting services and financial
   systems, will be subject to oversight by the Delphi Executive Steering Committee.

3. Recommendation: The DOT CFO and OA CFOs should review financial processes
   and develop policies and procedures to minimize erroneous data being provided to
   ESC. Each OA’s CFO should have the authority to require that financial policies and
   procedures are followed by all OA staff.

   Response: Concur – As part of implementing the requirements of OMB’s revised
   Circular A-123, Management’s Responsibility for Internal Control, the DOT CFO will
   work with each OA during FY 2006 to strengthen internal controls and the policies and
   procedures used by all OAs. The goal is to minimize the amount of erroneous data and
   to reduce the need for after the fact corrective actions. We believe the OA CFOs
   already have the authority to enforce their policies and procedures, but the July 18,
   2005, guidance further strengthens this authority by requiring that each OA’s CFO
   report directly to the Administrator of their OA to enhance the importance of the
   Financial Program.

4. Recommendation: The DOT CFO and the OA CFOs should have explicit authority to
   select the process and transaction types that are appropriate for outsourcing to ESC.

   Response: Concur – The DOT CFO has statutory authority to oversee all financial
   management activities relating to the financial programs and operations of the
   Department. The DOT CFO has been working with the OA CFOs to move standard
   operational accounting processes to the ESC. By January 1, 2006, the DOT CFO will
   inventory the functions being performed by the ESC for each OA and will work with
   each OA CFO to ensure that the processes and transaction types appropriate for ESC
   are identified and that a plan is developed to move these activities to the ESC by
   September 30, 2006, if they are not already being done by the ESC.

5. Recommendation: The SES ESC Director position be broadened to include functional
   and technical expertise together with leadership and marketing experience.
                                                                Atta ch me nt 2 , Pag e 3 of 6



   Response: Concur – This position is responsible for the leadership of the ESC under
   administrative guidance of the MMAC Director and programmatic and functional
   guidance from the DOT CFO. We are working with MMAC to ensure that the person
   selected has the functional and technical skills and leadership needed to be successful.

6. Recommendation: The ESC should develop a cost accounting system to accumulate
   direct and indirect costs on a unit basis and to support the operating budget and the
   product and service fee structure of the ESC.

   Response: Concur – We are working with ESC to ensure that by March 1, 2006,
   the ESC can correctly account for the full cost of their operations and develop billings
   that represent full cost recovery from each of their customers.

7. Recommendation: The Service Level Agreement (SLA) be standardized and the ESC
   should limit the extent of customization of processes. The ESC should establish the
   SLA with strict and easy to monitor performance standards.

   Response: Concur – The general SLA for all OAs is being expanded to cover both
   accounting services and the financial system and is being standardized for similar
   processes. In cases where the OA, the ESC and the DOT CFO agree that additional
   services are to the benefit of all concerned, the SLA will be modified to address these
   items. The SLA will contain measurable performance metrics that can be used to
   monitor performance. The revised SLA will be effective October 1, 2005.

8. Recommendation: – The ESC should develop a performance agreement that includes
   metrics to measure essential management assertions – accuracy and completeness – and
   that addresses the quality of work performed by the ESC.

   Response: Concur – The performance metrics will be included in the annual SLA
   signed by all OAs. The metrics and results will be published as a part of the Delphi
   DashBoard and will be visible to all ESC customers.

Implementing these recommendations will strengthen our efforts to improve financial
management systems and operations throughout the Department. Thank you for your
continuing support for these efforts.

Attachment

cc: Ramesh Punwani
    Ruth Leverenz
    Lindy Ritz
                                                                       Atta ch me nt 2 , Pag e 4 of 6


                CFO Authority and Oversight Policy
PURPOSE

The purpose of this policy is to clarify the Assistant Secretary for Budget and Programs /Chief
Financial Officer’s (DOT CFO) responsibilities pertaining to the oversight of:

    •   The organizational structure of the Enterprise Service Center (ESC), and budget/accounting
        offices within Department of Transportation (DOT).

    •   The selection of executive-level financial, accounting and budget personnel within each
        Operating Administration (OA) and the ESC.

    •   The establishment of performance awards and bonuses for selected positions within the
        ESC, and OA Finance, Accounting and Budget executives.

Additionally, this policy is intended to clearly state the required organizational alignment of each
OA’s Chief Financial Officer (OA CFO) and the concurrence requirements relating to the selection
of, and the awards, and bonuses provided to Budget, Accounting and Finance personnel in each OA
and the ESC.

EFFECTIVE DATE: October 1, 2005

AUTHORITY

Title 31 U.S.C. Section 902, CFO Act of 1990. The Congress mandated financial management
reform by enacting the CFO Act (P.L. 101-576), which establishes a leadership structure, provides
for long-range planning, requires audited financial statements, and strengthens accountability
reporting. Among other duties mandated under Title 31 U.S.C. Section 902, the DOT CFO is
required to:

    •   “Report to the Secretary regarding financial management matters;”

    •   “Oversee all financial management activities relating to the programs and operations of the
        agency;”

    •   “Develop and maintain an integrated agency accounting and financial management system,
        including financial reporting and internal controls;”

    •   “Make recommendations on the selection of the DOT Deputy CFO;”

    •   “Direct, manage, and provide policy guidance and oversight of agency financial
        management personnel, activities, and operations, including:”
            o    “The recruitment, selection, and training of personnel to carry out financial
                 management functions, and”
            o    “The approval and management of financial management systems design or
                 enhancement projects;”
                                                                      Atta ch me nt 2 , Pag e 5 of 6

OVERSIGHT POLICY
Organizational Structure - To ensure that each OA has an organization structure in place that
enhances our probability of success and meets the spirit and intent of the CFO Act:

    •   Each OA will establish a CFO position.

    •   The OA CFO will report directly to the Administrator.

    •   The OA CFO will be a dedicated position responsible for the oversight of all financial
        management and budget activities relating to the programs and operations of the OA.
           o The DOT CFO may approve assigning additional duties to the OA CFO if the
              additional duties will not impair the CFO’s ability to perform CFO functions.

    •   The Federal Aviation Administration’s Mike Monroney Aeronautical Center (MMAC) will
        staff and operate on a reimbursable basis the ESC. The ESC will provide accounting
        operations and financial systems services to DOT OAs and to agencies outside of DOT
        under the Office of Management and Budget (OMB) Center of Excellence program. An
        SES level position will be established to provide leadership to the ESC. The Director of the
        ESC will report for administrative purposes to the Director of the MMAC; however
        programmatic direction and guidance will be provided by the DOT CFO.

Selection of Budget, Finance and Accounting Personnel – To ensure that individuals selected to
fill leadership positions in accounting, financial management and budget activities have the
necessary qualifications and background to successfully carry out and improve CFO activities:

    •   All financial, accounting and budget related Senior Executive Service selections submitted
        to the Executive Resources Recruitment Committee (ERRC) will be routed to the DOT
        CFO for concurrence.
            o   The positions included are:
                       Director of the ESC,
                       ESC director of Accounting Operations
                       ESC director of Financial Systems (Delphi)
                       OA CFO
                       OA Director of Budget
                       OA Director of Financial Management/Accounting; and
                       equivalent positions.
            o   If any of the above noted positions is not an SES level position, and is therefore not
                required to go through the ERRC, the ESC/OA will contact the DOT CFO for
                concurrence before the selection is finalized.
                                                                    Atta ch me nt 2 , Pag e 6 of 6




Performance Awards and Bonuses – To ensure that Departmental goals and requirements are
considered when developing the annual performance plan, and the associated annual rating,
bonuses or awards for the rewarding individuals occupying the above noted positions:

   •   Annual performance plans for the individuals in the positions noted above will be routed to
       the DOT CFO for concurrence.

   •   All annual ratings, proposed awards, and bonuses for these individuals will be routed to the
       DOT CFO for concurrence.
